No. 21-5378
IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2022

ANTHONY KIRKLAND
Petitioner
vs.

STATE OF OHIO
Respondent

PROOF OF SERVICE
I, Ronald W. Springman, Jr., do swear or declare that on this date, September 9th, 2021,
as required by Supreme Court Rule 29,1 have served the enclosed BRIEF IN OPPOSITION TO .
PETITION FOR WRIT OF CERTIORARI TO OHIO SUPREME COURT on each party to the
above proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows: Andrew P. Avellano (0062907),
Attorney at Law, 4200 Regent Street, Suite 200, Columbus, Ohio 43219 and to Timothy F.
Sweeney (0040027), Attorney at Law, Law Office of Timothy Farrell Sweeney, The 820
Building, Suite 430, 820 West Superior Ave., Cleveland, Ohio 44113-1800.
I declare under penalty of perjury that the foregoing is true and correct. Executed on September
yT 2021.

Ronald W. Spcmgnjan/.l/., 004
Assistant Prosecutmg, orne.

P

